                            FARM CREDIT ADMINISTRATION

                        AGREED-UPONPROCEDURESREPORT:
                          FEDERAL INFORMAnON SECURITY
                           MANAGEMENT ACT EVALUAnON

                                        SEPTEMBER30, 2004




HARPER, RAJNS, KNIGHT & COMPANY, P.A.
   CERTIFIED PUBLIC ACCOUNTANTS
       RIDGELAND, MISSISSIPPI
                                            CONTENTS

                                                                 PAGE

IndependentAccountants'Reporton Applying Agreed-UponProcedures    3

]~xhibit I -Objectives, Scope and MethodoJogy                     5

]:!.xhjbjt II -OMB,   FISMA Reportjng Template                    8




                                                                   2
                                         Independent Accountant's Report
                                       on Applying Agreed-Upon Procedures


    The InspectorGeneral
    Farm Credit Administration

    We have perfonned the procedures summarized below that were agreed to by the Fann Credit
    Administration's Office of Inspector General, solely to assist you with the FY 2004 evaluation of the
    Fann Credit Administration's (FCA) security program and practices. This engagement was conducted in
    accordance with Statements on Standards for Attestation engagements established by the American
    Institute of Certified Public Accountants. The sufficiency of these procedures is solely the responsibility
    of those parties specified in this report. Consequently, we make no representation regarding the
    sufficiency of the procedures described below either for the purpose for which this report has been
    requested or for any other purpose.

    The system evaluations were performed in accordance with NIST Self-assessmentguide. The Office of
    Inspector General, supported by Harper, Rains, Knight & Co. P.A., the independent evaluator, determined
    the critical elements that represent essential tasks for establishing compliance with FISMA, and the
    guidelines issued by OMB, GAO, CIO Council, and NIST for each control category, including:

            documentedsecuritypolicies;
            documentedsecurityprocedures;
            implementedsecurityproceduresand controls;
            testedandreviewedsecurityproceduresandcontrols;and
            fully integratedsecurityproceduresandcontrols.
    For eachcontrolcategory,the evaluatordeterminedthe associatedobjectives,risks, and critical.activities,
    as well as related control techniquesand evaluationconcernsspecificto FCA's information technology
    environmentthrough:

            Review of informationsecuritypolicies and procedures;
            Inquiries ofFCA personnel;
            Observationof systemaccesscontrols;
            Review of systemdocumentationincluding securityplans,softwarechangerequestsand
            approvals,securitylogs and audittrails.
    We used the requirementsand criteria found in GAO's Federal Information SystemControls Audit
    Manual (FISCAM), OMB Circular A-130, Appendix III, "Security of FederalAutomated Information
    Resources,"currentNIST guidance,andthe CIa Council Frameworkto performour evaluation.

    In our evaluation we considered the following mission critical systems:

            Federal Financial System (FFS)
            PersonneJ/Payrol,JSystem
            Consolidated Reporting System
            Windows 2000 Network
            Lotus Domino (Notes)

                            Harper, Rains, Kniaht &..Company, P.A. .Certified   Public Accountants. Consultants
                                                                                                                          3
                    One Hundred Concourse. 1052 Hiahland Colony Parkway, Suite 100 .fudaeland,        Mississippi 39157
                                 Telephone 601.605.0722     .Facsimile 601.605.0733     .www.hrkcpa.com

.
The Inspector General
F'ann Credit Administration -continued


Our proceduresdid not revealany information securitycontrol mattersthatwe deemedto be significant
deficienciesthat mustbe reportedunderFISMA. The resultsof our infoTmationsecurityprogramand
practicesevaluationare summarizedin Exhibit II.

We were not engaged to, and did not conduct an examination, the objective of which would be the
expression of an opinion on the Farm Credit Administration's security program and practices.
Accordingly, we do not express such an opinion. Had we performed additional procedures, other matters
might have come to our attention that would have been reported to you.




                                                                                                    4
Exhibit I -Objectives, Scope and Methodology

llle Office of Inspector General, supported by a contract with Harper, Rains, Knight & Co. P.A.,
perfonned an independentevaluationof the Fann Credit Administration's(FCA or Agency) infonnation
securityprogramandpracticesfor FY 2004.

A..   General   Overview


      FCA is an independent agency in the executive branch of the U. S. Government. ]t is responsible for
      the regulation and examination of the banks, associations, and related entities that collectively
      comprise what is known as the Farm Credit System (System); FCA promulgates regulatjons to
       implement the Farm Credit Act of 1971, and examines System institutions for compliance with the
      Act, reguJatjons,and safe and sound banking practices.

      FCA has less than 300 employees. The Agency headquarters are in McLean, Virginia. It has field
      examination offices in McLean, Virginia; Bloomington, Minnesota; Dallas, Texas; Denver, Colorado;
      and Sacramento, California.


B Mission Critical Systems
      FCA is a single program agency with five mission critical systems. Mission critical systems are
      defined as any telecommunications or information system used or operated by an agency or by a
      contractor of an agency, or organization on behalf of an agency that processes any information, the
      loss, misuse, disclosure, or unauthorized access to or modification of, would have a debilitating
      impact on the mission of an agency. In FYO4 and FYO3, all mission critical systems were evaluated.

      In accordance with the Federal Information Security Management Act (FISMA)              and OMB's
      implementation guidance, we evaluated the following mission critical systems.

           Major Applications
          a     FederalFinancial System(FFS)
                FFS is the major application that supports all FCA core accountingfunctions including
                budgetexecution,accountspayable,disbursements,purchasing,travel, accountsreceivable,
                generalledger, documenttracking, project cost accounting,and externalreporting. FFS is a
                mainframe computerfinancial managementsystem.FFS is processedby the United States
                Geological Survey (USGS)/NationalBusiness Center(NBC), and American Management
                Systems, Inc. (AMS). The FFS software is owned and maintained by AMS. AMS is
                responsible for providing developmentactivities including regular upgrades,fixes, and
                requestedenhancements   to maintainthe core FFS software.NBC personnelare responsible
                for defining and developingprocessesto retrieve or receive data from externalsourcesto
                develop correspondingprogramsthat enableFFS to load the data accordingly.FCA' s FFS
                securityadministrator,locatedin the Office of Chief FinancialOfficer (OCFO)is responsible
                for managingsecurityaccesscontrol to the FFS agencyapplication.The FFS was placed in
                productionin June2001.

           b. Payro]] Servicesfrom National FinanceCenter(NFC)

                USDA's National Finance Center (NFC) located in New Orleans, Louisiana provides the
                Personnel/Payroll System (PPS) to FCA. The NFC provides distributed application and
                telecommunications support for the remote site located in McLean, Virginia. NFC developed
                a "master security plan" for the general support system in New Orleans. FCA's Office of the
                Chief Administrative Officer (OCAO) maintains a security plan for the remote system at
                FCA that incorporates provisions of the master security plan.
                                                                                                         5
                c.   ConsolidatedReportingSystem(CRS)

                     CRS is a major application that supports FCA operations. CRS is an Oracle re.]ational
                     database containing financial and statistical information on active and inactive Farm Credit
                     Institutions. CRS contains three distinct subsystems that are Can Report, Loan Account
                     Reporting System (LARS), and Web-based CRS Reports:

                     .   Call Report is comprised of financial information including a statementof condition,
                         statementof income,and supportingschedulesthat is collected quarterly from the Farm
                         Credit System(FCS) Institutions. Call Report subsystemis monitored, analyzed, and
                         assessedby FCA examiners and financial analysts to ensure that the integrity and
                         confidentialityof financialdataaremaintained.

                         LARS databasecontains specific loans of Farm Credit System (FCS) Lender Institutions.
                         Institutions submit the data quarterly to the FCA via diskette or zip file. The loan data are
                         loaded using SQLLoader, and are then verified and va.Jidatedby FCA personnel.

                         Web-based CRS Reports is an FCA developed application using the JavaScript front-end
                         interface and an Oracle databaseback-end application. The reports are bui1t via using e-
                         Reporting Suite, and are availab1e on the FCA's Web site. The Freedom of Jnformation
                         Act (FOJA) versions of the reports are available to the public. The non-FOJA versions of
                         the reports are available to userswho are authorized to view their institution data.


                Missjon Critic a] Genera] Support Systems

                a. Windows2000

                     Windows 2000 is an operating system or the core program of a computer that allows the other
                     programs and applications to operate. Windows 2000 is fully integrated with networking
                     capabilities and was designed for client/server computing to facilitate user workstation
                     connections to servers and the sharing of information and services among computers.

                     Wjndows 2000 Server is the prjmary operating system insta]}ed on substantia]}y a]} servers in
                     the FCA network. Addjtiona]}y, Windows 2000 and XP are insta]}ed on agency laptop and
                     desktop computers where they function as a client to the FCA network as we]} as a stand-
                     alone operating system for the cljent hardware. Through Windows 2000/XP, users can access
                     network services such as file servers, e-mail, the Internet, applications and shared hardware
                     such as printers.

                     Lotus Domino (Notes)

                     Lotus Domino (Notes)applicationis databasesystemsoftwareownedandmaintainedby the
                     FCA. The applicationsupportsthe daily administrativetasksincluding e-mail, group
                     discussion,calendaringand scheduling,databasemanagement,   forms, and workflow of FCA.

        c.   Methodology
             The systemevaluationswere performedin accordancewith NIST Self-assessment    guide. The Office
             of InspectorGeneral,supportedby Harper, Rains, Knight & Co. P.A., the independentevaluator,
             determined the critical elements that representessentialtasks for establishingcompliance with
             FISMA, and the guidelinesissuedby OMB, GAO, CIa Council, and NIST for eachcontrolcategory,
             including:
                     documentedsecuritypolicies;
                     documentedsecurityprocedures;
                     implementedsecurityproceduresandcontrols;
                     testedandreviewedsecurityproceduresandcontrols;and
                     fully integratedsecurityproceduresandcontrols.
                                                                                                                    6


....
b.
2.  .
For each control category, the evaluator determined the associated objectives, risks, and critical
ac1:ivities,as well as related control techniques and evaluation concerns specific to FCA's information
tec;hnology environment.

The evaluation was conducted in accordance with the requirements and criteria found in GAO's
FISCAM, OMB Circular A-J30, Appendix III, "Security of Federal Automated Information
Resources," current NlST guidance, the CJO Council Framework. We used this information to
ev::lluate FCA's practices and addressedthe above five control areasto be considered in determining
colmpliance with FJSMA. For each critical element, the evaluator made a summary determination as
to the effectiveness of FCA's related controls. If the controls for one or more of each category's
critical elements were found ineffective, then the controls for the entire category are not likely to be
effective. The evaluator exercised its professional judgment in making such determinations.

The evaluation focused on the actual performance of the Agency's security program and practices and
not on how the Agency measures its performance in its own annual evaluations. The Agency's
se(;urity controls were evaluated for programs and practices including testing the effectiveness of
se(;urity controls for Agency systems or a subset of systems as required. The evaluator performed
FI:SMA evaluations in accordance with Federal guidance, e.g., NIST Self-Assessment Guide for
Inj~rmation Technology Systems.

Our procedures did not reveal any information security control matters that we deemed to be
si!!~ificant deficiencies that must be reported under FISMA.

During FY 2004 FCA OIG performed an inspection of the Office of the Chief Financial Officer" s
project management practices over two information systems that are currently in the implementation
phase. That inspection revealed several weaknessesthat OIG has communicated to management in a
separate report. We considered OIG's findings during this evaluation and determined that they do not
indicate significant deficiencies that must be reported under FISMA. However, OIG's findings are
indicative of reportable conditions that OCFO must address in a POA&M.




                                                                                                      7
      0
      -c                  -                    .,t;
      -oU'"                                     t:=
       0          bO;:                         .;:
      -tQ                  ~
      ~~~                                         I>
       I>UC                                    .c
       ~tQO                                     -
       ",o.u                                    ..:
       "e-«tQ
          ~ 0                                   -:;
                                                '"
      U0 U :'
      -o     ~
             '"
                                                    e
                                                    tQ
      O _C
         tQ I>                                      '"
      s.::-o                                    -<
       CCC                                          .:
       0..9;'"                                       I>
      -0"""                                         >
       0                   0                        0
      ;:
       .,.c-o
                 .S        3                        ~
                                                    ...
       ~ .~                .,                       0
      >.:>U                                     -
       0 e
      bO
                           ~
                           c
                           0.
                                                    '"
                                                    >.
       ",~--"         ,
                                               -0   tQ
      -«::~
    _.c",-                                      0
    U             cu                           r'\
    ~::~I>                                      -0
                  -.-0.
    .c="0U
       -c.-
                           N                        "
                                                    0
      -o-o~                                         >
       c-::                                         tQ
       =,°t:                                   .c
       oCo
    =-0=
                                                    >.
                                                    tQ
    2:08                                            e
    o-«~                                        -«
           .u             -"..,;               U
      >.~~.G
    ="'c   .-<o                  -"
                                                ~
                                 ~              - .
     U                                           '"
    t;:: .2 "-                   "'-            .~
    .--0-
     U
     "
           eo
          .--U
                 '"   "-                        'C
    V)
     o.-o~1>... .2..c
            .,                                      I>
             ut;::-                              e
        '.,
      ",~>.-                     0.-            -
      ",tQ_1>                                   -
      8-0-;:0.
      ocoe                                      ~-
      ~"'=' 0" c
      0.                                       .-'"
                  C .,           U                      .
    ",--.c-
      ~o~
      --"'-
    ~ ~ ~ '"
                           '"     0
                                               "::
                                                    c
                                                    0
    ut;::"'8
         :: 0.- >                                   g.
                                                    ...
     ~                                              '"
       -0
       0
    ',::    u
                          U
                          0
                                   0-0
                                  '"           -0
      tQ.r=                      -I>
      .~ .~ -« c                                    c
      -g~u1il>                                      C
      ..-o~'"                                  ~
      8P-.,;bO
      """        .-"'.- C "go
      -gg8;t;-
       tQ '" 0 .t:-'" c
       ctQo.o
                 '" ~                           ..0
      .2 >. -« ~ .:.;
      =u ==."
         ...~ CI> .
    I::; "'U-o
    .--C
                 ee
                                                    0
      t:°CI>
      o-~o.                                    ~
                                               >.
     ., '"
     ~='-~  .-.,                                 '"
     .,uo.-g                                     ~
    =     '"               E.-                 "<8
    -~     0.              0 bO                 t;::
     s.P-uc
       ..-t)='0.;:
     0 '"
      p.c                         u
                                               ~-
                                               '-
      o."~o                                         0
      tQ    ~                    ...
      c~~o.                                     ~
    '" '".,  tQ '-0                            .--C
    -0    '"
     0",-0'"
      ~  '"  0    '"
                                                  :>..
                                                ...
    -;;;                  -0     0               0
     .--0     .-U                               >
    :c~~e                                       0
      eo,,~o.                                   ~
      "'QOoI>                                   ..
    -0
     0 .-.?;o
        C -.c-                                      0
      '" '"'" >0 .-C
    .r::
                                               ~
      -« u t).-  0.-             '"
                                               ..;
    Uel>-o                                      P-
    ~o.=c                                       '"
      ~.-...0'"
            u '" -"
    ~.s]~
    .r::o,,-o
                                                ~
                                                '"
     ~:a:28                                     e
    -o>~e                                       P-
       o         ;>               ~             '"
       <5 -u
       ~                  0->.                      '" .
      .--«                 ~ "'-                ., c
      ~-"i)~                                        ;>~
       o~.cu                                   .;:00
      "u:>e""
      0"                                        0>'
                                                ~u
      Oo~~                                     ':::c
                                  t:           '-1iI>
    0~"..9;                                     °c
     -1>-0
     ~ '" -0                                    ,,-
     oOUI>                                      OC
    ":: -0                0      00            =            0
     '"  .~               ..0                               u
    .2 ~ 00.., ~-o
      '" ...:.;>                           .;:"
       ;>o.~o                                   oc
       00-:::-0                                 >1>
      :ot:';;;= ~                                   8 §
    ~P--5.r::                                   "'u
    ~~-o-«                                      ~.g
      ~oop-U                                   0.",
      """'~
      ~c~                                           [)'O
      >..!!~C                                       c~
       ..OoCI>                                      I>.r::
       0~1>~
      .-L'                                          ~-
       ...;: ~i) ~0.                             -0
                                               ',:: C
       00 ~-~
            -_n                                     C '"
                                                    0
..0               u '" -«                              .,
n-5"C                                               Uo
c                 '"       tQ          ."'-0
.bO-~'"                                          '"
E   c"'c'"                "       I>            .r::~       -
E5~"'-u                                         -«B
0                 cue                          U'"
I.)CtQ~Oo                                      ~~
                                                                                                                                                                                                                             >-
"t,
 =,

       0)
                                                                                                                                                                                                                       "'-
                                                                                                                                                                                                                        -.a
                                                                                                                                                                                                                       tDo-o
t)                                                                                                                                                                                                                     O.-Q)
.~:                                                                                                                                                                                                                    0         Q) -;:
                                                                                                                                                                                                                                 >   N
       '"                                                                                                                                                                                                              COQ)O
       c-                                                                                                                                                                                                               I:-m-Q)
                                                                                                                                                                                                                        0
       (1)
                   Q)                                                     Q)                                                                                                                                           -CO-
                                                                                                                                                                                                                       "CO -"
       IJ)                                                                                                             Q)         Q)       Q)       Q)                   Q)
       IJ)         E                                                                                                                       E                                                                           -.cCO
       0)
       u          -.;::;                                                  §                                          ..§          ,§      :;::;    ..§                  ..§                                            --I:            Q)
       0)          Q)                                                     Q)                                           Q)         Q)       Q)       Q)                   Q)                                            DQ).a
                                                                                                                                                                                                                       ->                              .
       c          :5                                                     :5                                          :5           :5      :5       ,£                   :5                                             --OQ)
                                                                                                                                          ,.,-                                                                         Il.(!)-"
       ()         '5                                                     '0                                          '0           '0       0       '0                   '0                                             -I:                        I:
       0)         ~
                  0                                                      ~                                           0~           ~       ~        ~                    ~                                              ~ai.-CO
]~                0                                                       b                                          a
                                                                                                                                  0
                                                                                                                                  C>
                                                                                                                                          0
                                                                                                                                          C>
                                                                                                                                                   0
                                                                                                                                                   0
                                                                                                                                                                        0
                                                                                                                                                                        0
                                                                                                                                                                                                                        ""m=
                                                                                                                                                                                                                        "I:Q)Q.
 ,i              .-
                  0                                                       0
                                                                          "'";
                                                                                                                     a
                                                                                                                     ~            .-
                                                                                                                                  C>      C>
                                                                                                                                          ~
                                                                                                                                                   0
                                                                                                                                                   T""                  ,-0                                             Q.co.aE
       ()
      ,i          .b
                  0>
                                                                          <0
                                                                          m
                                                                                                                     tb
                                                                                                                     0>
                                                                                                                                  cD
                                                                                                                                  m
                                                                                                                                          to
                                                                                                                                          m
                                                                                                                                                   rb
                                                                                                                                                   m
                                                                                                                                                                        ~
                                                                                                                                                                        0>
                                                                                                                                                                                          0               (/)
                                                                                                                                                                                                          Q)

                                                                                                                                                                                                                       cn~~o
                                                                                                                                                                                                                       I-:J""
                                                                                                                                                                                                                       cnm°l:
      Cl.                                                                                                                                                                                7"              >-            Z 10 ~                    ';
(1'                5                                                      (:,                                          5           (;      ()                            5
~-                                                                                                                                                  15
                                                                                                                                                                                                                        >-~I/).Q
                   iii                                                    iii                                         w           II>      (/)      In                   .,;                                           .a°EO
      -,
                   >.
                   ro                                                     "'>-                                        >-
                                                                                                                       ro         '">-     >-
                                                                                                                                           m
                                                                                                                                                    >-
                                                                                                                                                    ro
                                                                                                                                                                         >.
                                                                                                                                                                         m                                             -oQ)..o
                                                                                                                                                                                                                        Q).c--
      c:          ~                                                       ~                                           ~           ~        ~        ~                    5:                                             -0_1/),,-
                                                                                                                                                                                                                       '-1:>-..
       0)
       Eo
                  "«                                                      «                                          «            ";:(    ~        <{                   «                                               > -I/)
                                                                                                                                                                                                                        0 --I/)
                                                                                                                                                                                                                        "-o~
                                                                                                                                                                                                                                  co
      c:          i;;                                                     "0                                         'iii         ii)     -;;;      "iii                ij)                                             Q.Q)01/)
                   0                                                      0                                            0           0       0        0                    0                                              "._.,;".a
       ~=
       ()          E                                                      E                                            E           E       E        E                    E
"t'
      Cl.
                  "«                                                      «                                          «            ";:(    ~        <{                   «                                               """"
                                                                                                                                                                                                                        I:
                                                                                                                                                                                                                        CO~ C
                                                                                                                                                                                                                                 ".-              I:
                                                                                                                                                                                                                                                  I/)
       ()                                                                                                                                                                                                              ~"DQ)I:
                                                                                                                                                                                                                       :J      .co
-t;
       o~
                                                                                                                                                                                                                       mN_~
                                                                                                                                                                                                                         -:J ..
                                                                                                                                                                                                                       -"CO~
                                                                                                                                                                                                                       m >    m
-!;                                                                                                                                                                                                                    -~ ..~                    '0
-~=                                                                                                                                                                                                                    C-Q)C
"t)
                                                                                                                                                                                                                       .c"Cm
                                                                                                                                                                                                                       " > -I/)
 ~~
,)                                                                                                                                                                                                                     "Om..
-,,;                                                                                                                                                             -;;;-                                                 -.a.c"
                                                                                                                                                                                                                       'Om-..
                                                                                                                u                                                c                                                     """"
..
           C)                                                                                                    Q)                                                                                                    .,; I/) :;                 0
                                                                                                                                                                  Q)
      ~i
                                                                                                                '"
..
                                                              0>                                                 U)                                               co                                                   -';:            :>         I/)
                                                     :5                                                          >-
                                                                                                                                                                  0                                                     ..:>Q)
                                                                                                                                                                                                                        ~'Om~
           ~~                                                  0)                                                (J)
                                                                                                                                                                  Co
                                                                                                                                                                  E                                                     "-So..
..
           t=                                            .~                                                     0                                                                                                      .c01/).c
 ()
t}.
                                                               cn
                                                                                                                 "0                                         , 8                                                        ;~iU;
                                                                                                                                                                                                                        C        I/)   I/)        C
                                                          '"
                                                                                                                 u                                  cIi     !    CI                                                     m E ,- =
                                                                                                                 0
 ~~
 t~
                                                         "C
                                                         t>
                                                               0>                                               .r:.
                                                                                                                 'Q)                               g        I
                                                                                                                                                            ,
                                                                                                                                                             i ,S-m
                                                                                                                                                                                                                       -q">-:J
                                                                                                                                                                                                                       O_""D
                                                                                                                                                                                                                        .I/) C                    Q)
:£;                                                       '"
                                                                                                                 E                :?;-
                                                                                                                                                   .(3
                                                                                                                                                   ~        I     Q)                                                   -q>-Q).c
                                                         "C
                                                                                                                                                                                                                       °lllm"
                                                          C                                                      Q)
                                                                                                                                  "ii                                                                    0             ~    ..m III
 Eo                                                       0
                                                          U
                                                                                                                .~
                                                                                                                rn
                                                                                                                                   ~
                                                                                                                                   c
                                                                                                                                                    ()      I ~                                          u                  .c",>-
J~
                                                                                                                                                            ,I   ,Q.
                                                                                                                                   c                I/)                                                                 E-,c~
t"                                                        0>
                                                                                                                2
                                                                                                                 c                 co
                                                                                                                                           ~
                                                                                                                                                    c             m
                                                                                                                                                                                                    , -
                                                                                                                                                                                                    I
                                                                                                                                                                                                          Q)
                                                                                                                                                                                                         .c            '0
                                                                                                                                                                                                                        --1-1:
                                                                                                                                                                                                                         -0
                                                                                                                                                                                                                       1:"'",..
                                                                                                                                                                                                                                           '..    '"
't.
 t)
           t=                                                  Qj
                                                               3;
                                                                                                                rn                W
                                                                                                                                   co     c
                                                                                                                                           0
                                                                                                                                                   .2
                                                                                                                                                   ~
                                                                                                                                                            I
                                                                                                                                                            I
                                                                                                                                                                  E
                                                                                                                                                                  ~
                                                                                                                                                                                                    I
                                                                                                                                                                                                    :    P-            ml:O:J
                                                                                                                                                            ,i   ~0                                                    "00"
                                                                                                                                                                                                                        0 I: N III
 ()
-'=                                                            >
                                                               oj
                                                                                                                 Q)
                                                                                                                :5
                                                                                                                                  .P-       Q)
                                                                                                                                            >
                                                                                                                                                    Q)
                                                                                                                                                    a.            (/)                               ,i ""u>-           E- --
           u                                                   0                                                                  ro                0             ::J                                                  ..m"'
      :...                                           .D
                                                                                                                 ui
                                                                                                                                          .~                      m
                                                                                                                                                                                                         -~               ,c"-  O
-':I                                                      III
                                                                                                                ~
                                                                                                                                  "1:)
                                                                                                                                   Q)      E         ()
                                                                                                                                                    t5
                                                                                                                                                                  Q)
                                                                                                                                                                 !5
                                                                                                                                                                                                         "U            ~-"U
                                                                                                                                                                                                                       10111"'
                                                                                                                                                                                                                           "'.a 0
           -                                           0>
                                                         "C
                                                                                                                Q)                ro       Q)
                                                                                                                                                    ~            .D                                       In
           ()                                                                                                    >'                        "'.;)                                                         1::
           t=
           c"
           ~~
                                       ,
                                       ,
                                                     ;;::
                                                     :;:;
                                                       C                                                        ~                 X
                                                                                                                                  ~
                                                                                                                                           >-
                                                                                                                                           In
                                                                                                                                                   C             '0                                       0
                                                                                                                                                                                                          a.
                                                                                                                                                                                                                       ~>E~
                                                                                                                                                                                                                       O..!"u
                                                       0>
                                                                                                                u
                                                                                                                                                    0
                                                                                                                                                    u             (/)
                                                                                                                                                                                                          ~             I:-;-IL
                                                                                                                '"                o~      !::                     c                                                    -.ag-
                                                                                                                                  ~                u
                                                                                                                                                                                                         ~             "g'Ocnai
                                                     :Q
                                                                                                                                                                   0
           ~~                          !
                                                                                                                u                          In       c
      :...
      -'
      C)                               II,                     II)
                                                                                                                 c                0
                                                                                                                                          .~
                                                                                                                                                    ro
                                                                                                                                                            ,
                                                                                                                                                            i
                                                                                                                                                                 'ii)
                                                                                                                                                                 '5                                 I,   .c
                                                                                                                                                                                                          -...         CC>-E
                                                                                                                                                                                                                       -co.aco
                                                                                                                                                                                                                       5  III ...
           t=                          I
                                                     ~                                                     I
                                                                                                                0
                                                                                                                 u                c        C        I/)     I     Q)
                                                                                                                                                                                                     i
                                                         'u                                                                        Q)      Q)
                                                                                                                                                    E                                                     Q)            cElli';
'~~                                                                                                        I P-                    >       0>
                                                                                                                                           m        Q)
                                                                                                                                                                                         ~     .U
                                                                                                                                                                                                         Ii:            " 111_-
                                                                                                                                                                                                                        o..EE
                                                     ~                                                      I   U                 oS
                                                                                                                                                   1;}                                   -L:              0
                                                                                                                                                            Ij
.o-        -,
           m                           I
                                                                                                           i     Q)                !/)      Q)      >-                                                                 2>-111-
                                                              '<5
                                                                                                                                          :5                                              C              .2;-           CIII>-m
                                                              C1)
                                                                                                           ,
                                                                                                            I '" U)
                                                                                                                                  :£                I/)
                                                                                                                                                                                          0              --             "_III,c
                                                                                                                                                                                                                        El:m-
.~                                     I
           ~~                              i                  c
                                                                                                           i    -0                "1:)
                                                                                                                                   c
                                                                                                                                          '0        I/)
                                                                                                                                                                                                                        ""'1:':
:£;                                    :                 .2                                                I     C
                                                                                                                                   CO
                                                                                                                                            c       E
                                                                                                                                                    ro      I ,~                         -"i3
                                                                                                                                                                                         .~
                                                                                                                                                                                          C
                                                                                                                                                                                                    ,
                                                                                                                                                                                                    I
                                                                                                                                                                                                          Q)            "E~-
                                                                                                                                                                                                                       -s        I: !P.           I:
                                                                                                                                          .2
                                                                                                                                                    m                                    -In
                                                          ro
                                                                                                           :    :!J                !/)
                                                                                                            !   ~                  E      m         e       ! !::                         Q)
                                                                                                                                                                                         .c         :
                                                                                                                                                                                                          C             O"')(Q)
                                                                                                                                                                                                                        "~"E
                                                                                                                                                                                                       --nI0
                                                              Qj
                                                                                                                                                                                                                        ~ 0 I/)                   Q.
                                                               C-
                                                                                                                                   Q)
                                                                                                                                           u
                                                                                                                                          :E        a.
                                                                                                                                                            ;
                                                                                                                                                            !
                                                                                                                                                                  ~
                                                                                                                                                                   0
                                                                                                                                                                                         -,
                                                                                                                                                                                          :)
                                                                                                                                                                                          m         .-
                                                                                                                                                                                                    '
                                                                                                           ;     Q)
                                                                                                                                  W
                                                               o
                           U               i
                                                                                                                :2                                          !    'r0-                                                  cm~o
                            Q)                                 '<5
                                                                                                                 '"01              >-      Qj
                                                                                                                                           >
                                                                                                                                                   0              E
                                                                                                                                                                                           ,              E             ""0-;
                            (/)                                                                                                    !/)                                                    Q)              ...
                                                                                                                                                                                                                        E"->
                           ro
                                                              t>
                                                                                                                                                    Qi                                    ...0
                            c                             ~
                                                                                                                c:                !=      "U
                                                                                                                                           C        .D
                                                                                                                                                                  Q)
                                                                                                                                                                                         .£              ~              1112-0'"
                                                                                                                                                                                                                        111-"-0
                                                         C                                                                                  m                    :5                                                     "'-m..
                                                                                                                 Q)                ()               E                                     In              >-            1II0mo
                           .2
                           iG
                                                               0
                                                                                                                E                 om      C         :]
                                                                                                                                                     c           :5                       E               u             1111:"-
                                                                                                                                                                                                                       mo"'O
                                                               u
                            c                                                                                    U)                                                                       Q)              C
                                                         "C
                                                                                                                 U)
                                                                                                                 Q) Q)
                                                                                                                              .    E        Q)
                                                                                                                                            E       "tV
                                                                                                                                                                 '~
                                                                                                                                                                  (/)
                                                                                                                                                                                         -Q)
                                                                                                                                                                                          In              c>
                                                                                                                                                                                                                       ""~,c"
                                                                                                                                                                                                                        III m .~  C
                                                                                                                                  '0        c.
                                                               c
                            (/)                                                                                                                                                                                        --~
                            Q)
                                                              III                                                U) .-
                                                                                                                 U)U
                                                                                                                                                   ::§            !5                       >-             m             ~   '" :> C
                                                                                                                                                                                                                               :> m
                                                                                                                 nI '"             ~        0                                             In              ~
                           =c
                            0>             ,
                                                              .n                (!)
                                                                                                                     .0)           0
                                                                                                                                           ""Q)
                                                                                                                                            >
                                                                                                                                                     Q)
                                                                                                                                                                  u
                                                                                                                                                                  c
                                                                                                                                                                                          In
                                                                                                                                                                                          In             --0
                                                                                                                                                                                                                        C ~ .j- -a.
                                                                                                                                                                                                                       ,-01110C            .'"
                                                                                                                                                   :5
                           "
                           '5
                                           i
                                           I
                                                          _0 EN
                                                             0>                                    '   ~
                                                                                                                :':1-
                                                                                                                 ~(/)
                                                                                                                                  c         Q)
                                                                                                                                           "U        c       I
                                                                                                                                                                   0
                                                                                                                                                                   u
                                                                                                                                                                                           Q)
                                                                                                                                                                                          '"
                                                                                                                                                                                          In
                                                                                                                                                                                                    !
                                                                                                                                                                                                          C
                                                                                                                                                                                                          '"
                                                                                                                                                                                                          Q)           ";o-q..
                            01             i
                                                               cno
                                                                                                                I-Z
                                                                                                                                   Q)
                                                                                                                                   >        Q)
                                                                                                                                                     0       I
                                                                                                                                                             I
                                                                                                                                                                 'U
                                                                                                                                                                   c                      m               m
                                                                                                                                                                                                                       ""Ci'm
                                                                                                                                                                                                                       ~               ~          I/)
                                                                                                                                          :5
                                                               >-<0
                      0>                                                                                                          oS                 Q)
                           I-                                      cn
                                                                                                                ~ Q)                                               m
                   o~                                                     -oj                                   z:5                c       .S
                                                                                                                                                    ~
                                                                                                                                                    rn            II>
                                                                                                                                                                                          0
                                                                                                                                                                                          C
                                                                                                                                                                                         -Q)
                                                                                                                                                                                                         "U
                                                                                                                                                                                                         -
                                                                                                                                                                                                                        ;C:-.cE
                                                                                                                                                                                                                       .cco_..
                      cz                                      cn"C
                                                                E               .-
                                                                                                                 Q)-0
                                                                                                                .r:.
                                                                                                                                   CO
                                                                                                                                   !/)     u         ro          ~                        :)             --C            -':>iii
                                                                                                                                                                                                                        :J
                                                                                                                                                                                                                           E :»-
                      IV"
                      >-c
                                                              III
                                                              '-


                                                                                      '"
                                                                                           CI                                      C          Q)
                                                                                                                                                    0            os:                      C>               0            'P--III
                  .DIV
                                                                   0)-
                                                                   0                       c                     Q)-
                                                                                                                -U)
                                                                                                                 '- C             °"(ij
                                                                                                                                  C
                                                                                                                                           U
                                                                                                                                           ::I      <3           e                       D
                                                                                                                                                                                          Q)
                                                                                                                                                                                          '"
                                                                                                                                                                                                           a.
                                                                                                                                                                                                           a.
                                                                                                                                                                                                           m
                                                                                                                                                                                                                        "'-;~~
                                                                                                                                                                                                                        "'~=..
                  ">-                                          '-                          0>
                                                                                                                  Q) Q)                    U                     0                         nI             '"           ,cQ.Q.c
                   ,,=
                  .-0>


                      Q)   U
                                                         .;!:E
                                                                    0                      cn
                                                                                                                .r:. E
                                                                                                                 ~           Q)
                                                                                                                                  °"(ij
                                                                                                                                   E
                                                                                                                                           .~
                                                                                                                                            In
                                                                                                                                                   :5
                                                                                                                                                     Q)
                                                                                                                                                             ! U ~                       .c
                                                                                                                                                                                          >-
                                                                                                                                                                                                          nI
                                                                                                                                                                                                         .c
                                                                                                                                                                                                                       -"D
                                                                                                                                                                                                                       -..0
                                                                                                                                                                                                                        °Eoc "~
                                                                                                                                                                                                                               E
                      0
                              a.                                    cn                     cn
                                                                                                                 U)'Q)             >-         m     u        !     '(;' c                 u               >-
                      ~ID                                           3;                ~                          Q)-
                                                                                                                 u-                u        ~        c
                                                                                                                                                    ro       :     co          Q)
                                                                                                                                                                                          C               U             m't:.a>
                                                                                                                                                                                                                        "0
                   a.~                                   .-III
                                                                    0> cn                                        C           nI    c
                                                                                                                                   Q)     ~         <.9            Q)
                                                                                                                                                                               CI
                                                                                                                                                                               m
                                                                                                                                                                                          Q)
                                                                                                                                                                                          c>
                                                                                                                                                                                                          C
                                                                                                                                                                                                           Q)           ~"'-'"
                      *0
                      U            -
                                                    .>
                                                                     0>-
                                                                    '--
                                                                                            0>
                                                                                               ,
                                                                                                           ,
                                                                                                            ,
                                                                                                                  nlU
                                                                                                                 "ii) Q)
                                                                                                                 C           U)
                                                                                                                                   0>
                                                                                                                                   CO      (5       (5
                                                                                                                                                                  CI
                                                                                                                                                                  m                 Q)    m
                                                                                                                                                                                          Q)
                                                                                                                                                                                                           c>
                                                                                                                                                                                                           m
                                                                                                                                                                                                                         mQ."~
                                                                                                                                                                                                                        .~ ..E:J .c0
                   --~                                               0>                     cn                                     Q)         Q)
                                                                                                                                                       Q)
                                                                                                                                                             :    Q):5                   .c               Q)            -m          -
                                                                                                                                  .c      .r:.
                O>~~
                010>                                      £1-                                               i
                                                                                                            ,
                                                                                                                .~
                                                                                                                -'0
                                                                                                                    ~             I-      I-
                                                                                                                                                    .r:
                                                                                                                                                    ~
                                                                                                                                                             i
                                                                                                                                                             i
                                                                                                                                                                 .c
                                                                                                                                                                 I-           £
                                                                                                                                                                               c         I-              .c
                                                                                                                                                                                                         I-
                                                                                                                                                                                                                         c.c~-q
                      (/)U)                    ;          I-C/)                                                                                                                                                          "'~Uo
                cO6LL                          i.
                                                                                                                       .'0
                                                                                                                                                    ,..;                rn'~              '"'                            EUILRI
                                                              .riZ                                               U           nI   "1:)        Q)
                                                                                                                                                                                                                   "IL""..
                                                                                                                                                                                                                 "ml:._
                                                                                                                                                                                                                 ..m
                                                                                                                                                                                                                 -I:                    ~         .a
                                                                                                                                                                                                                 ;m5:EE
                                                                                                                                                                                                                 EE~..~
                                                                                                                                                                                                                 E~Q.iiig-
                                                                                                                                                                                                                 UIL~"
                                                                                                                                                                                                                 OU->-cn
Q
-5
~
u
Q)
!E
 C
Q)
::2
~0)
~
 0)
~
 0
 ~
£.
"la
 ~
"g
:0
-0
<I:
.".
0
0
N
>-
U-
...
  0
to:;
 '"~
 0
-~
"la
 :>
  0)
<I:
~
cn
G:
G'
  c
  Q)
 ~
  '0
9
0
  0)
-5
 bQ
  c
-.:
  ='
-0
-0
  0)
5
C
 0)
::2
  '"
  0)
  '"
  '"
    0)
    C
~   0)
  ~
"laN
-,.   0
  ,,0
 ~N
  Eo
 ...""'...
    0
 ~~
 (.)-
--~
  ~           0)
 --Q.
   0)
   (.)        0)
 !.:;cn
  0) ...
 -0     0
  -r'"I
    ~o (.)0
 t;:N
 -20
  bQr'"I
  ";n ...
    o~
    C E
    ~ 0)
    030-
    ~ 0)
       O)cn
              0
       0)     0)
  -c-o
  f-          c
              0)
    ~~
    ~ >.
   0
    e]'"
  uo=
                                                                                                                                                  j                                           I
                                                                                                                                                                                                                                                                                        "C                                         U)
                                                                                                                                                  II                                          I;
                                                                                                                                                                                                                                                                                             Q)                                    U)
                                                                                                                                                                                                                                                  --~
                                                                                                                                                                                                                                                   0                                '                                              0)
                                                                                                                                                                                                                                                                                                                                   Q)
                                                                                                                                                                                              I                  I
                                                                                                                                                                                                                                                   Q)~                                  Q)=e
                                                                                                                                                                                                                                                  "CO
                                                                                                                                                                                                                                                  '- "C                                 """"a.
                                                                                                                                                                                                                                                                                            C
                                            Q)                                           Q)                 Q)                                                                                                                  Q)                 ~CQ)U='~
                                                                                                                                                                                                                                                     Q) U Q) "C                                                                   .-
                                         ..§                                          ~
                                                                                         E
                                                                                                           ~                      Q)!Q)!Q)jQ)!
                                                                                                                                  E
                                                                                                                                 :0=
                                                                                                                                        ,     E     !
                                                                                                                                             :o=!:o=,:o=;
                                                                                                                                                         E                                    iE,
                                                                                                                                                                                                                                ..§                a.>c.cQ)cO
                                                                                                                                                                                                                                                   U)"C                                 =om
                                                                                                                                                                                                                                                                                        U)
                                         -:5
                                            Q)
                                            0
                                                                                      - -
                                                                                      £
                                                                                         Q)
                                                                                         0

                                                                                                            Q)
                                                                                                           :5
                                                                                                            0
                                                                                                                                 --,
                                                                                                                                  Q)
                                                                                                                                 .c
                                                                                                                                    0

                                                                                                                                                              Q):Q)Q);
                                                                                                                                                             .c:.c.c'
                                                                                                                                                              0;
                                                                                                                                                                             i    --
                                                                                                                                                                                  0                  0
                                                                                                                                                                                                                 '
                                                                                                                                                                                                                                Q)
                                                                                                                                                                                                                                :5
                                                                                                                                                                                                                                "6

                                                                                                                                                                                                                                                   ~
                                                                                                                                                                                                                                                   =,m";mc.o
                                                                                                                                                                                                                                                  "C~ciiio=,
                                                                                                                                                                                                                                                   Q) ~ ,Q Q)

                                                                                                                                                                                                                                                                c                   .0              ."!::: iii
                                                                                                                                                                                                                                                                                                              E                    U)
                                         ~
                                         0                                            ~
                                                                                      0                    ~
                                                                                                           0                     ~                           ~!                   ~           ; ~                :              ~
                                                                                                                                                                                                                                0                  gwuU)U)Q)
                                                                                                                                                                                                                                                     U Q) ,- .-"C
                                         a                                            0                    0                        0                         0              '0                      0                          a                  a..a.Q)U)m
                                         a
                                         ~
                                            .                                         0
                                                                                      ~
                                                                                          I
                                                                                                           .-
                                                                                                           0                        0                         0                   0                  0
                                                                                                                                                                                                                            .-  a
                                                                                                                                                                                                                                                  .cQ)(/)U)3~E
                                                                                                                                                                                                                                                        ::> .~                      ~                                              w
                                         <D                                           CO                   cO                       <0                        <0.<0                                  <0                         cO
                                                                                                           m
       1                                                                                                                                                                                                                        m
                                         OJ                                           0>                                            0>                       mo>                                     0>                                           ~>-"C.cg>m
                                                                                                                                    '-0                       '-"-                                   '-0                                            ..ocu                                                            c
      if;
      ~"iI.-
                                            '0                                           '0                ()
                                                                                                                                        -!
                                                                                                                                                              0
                                                                                                                                                                  _!
                                                                                                                                                                             ,    0
                                                                                                                                                                                        -!                 -;
                                                                                                                                                                                                                 ,              (:>                w"Cmwa.~
                                         .,;                                          iii                  .Ii                      II) ;                     II) I II) ; II) ;                                                 U)                  5Q)U)c"Cu
                                                                                                                                                                                                                                                    -::J~,-                                                   Cu-
                                                                                         >-                                         >.i                       >'!>">"                                                           >.
                                         >-
                                         ro
                                         ~
                                                                                      111
                                                                                      ~                    ~
                                                                                                            >-
                                                                                                           IV                       (\1 I                     (\1 i (\1 I (\1 i                                                 '"                uw"Com
                                                                                                                                                                                                                                                  ~
                                                                                                                                                                                                                                                  'u.- U) ::J
                                                                                                                                                                                                                                                           m --.~                                   ~                              c-
       ~
                                                                                                                                 ~ Ii ~
                                                                                                                                 ~    ~ II ~
                                                                                                                                           ~ i' ~ i                                                                             ~
                                         ~                                            "«                   <{                                I~ I                                                                               "«
                                                                                                                                                                                                                                                   Q)U)
                                                                                                                                                                                                                                                   >tt9m2""
                                                                                                                                                                                                                                                                                        a.U)0
                                                                                                                                                                                                                 I ~
                                         1;)                                          1;)                  C;)                      II)           I           II)           I'    II)                I/)
                                                                                                                                                                                                                                                  u.P.6                                           -"C                              m
                                                                                                                                                                                                                                                  Q)m                                   "C
                                            0                                            0                 0                        0             ,0                              0           I      0                          0                                                            Q)               Q)~
                                         E                                            E                     E                                                                                                                   E                     ~   E U)  ~
                                                                                                                                                                                                                                                                                                    -->                            m
                                                                                                                                    s.!s.Is.!s.!
                                         "4'                                          4'                   d:                       <{'<{!<ri..t:i                                                                              <t'               U0~0U)::JQ)
                                                                                                                                                                                                                                                     .0-                                     Q)
                                                                                                                                                                                                                                                                                                              Q)
                                                                                                                                                                                                                                                                                                              0-
                                                                                                                                                                                                                                                   O)mU)U) U)
                                                                                                                                                                                                                                                  ""Q)Cm.c
                                                                                                                                                                                                                                                   C""O)         ~                                      ""~M
                                                                             :                                                                          In
                                                                                                                                                                                                                                                   c c --Q)   U (/)
                                                                                                                                                                                                                                                                 -                                                                      ~
                                ;                        ;                                                                                                                                                                                         w3"C       mu-   0
                            ;                            I     C                   0>                            .In                                                                                                       ~
                     .;
                             .o
                            ,,:     "0
                                     C
                                                 W';:0::; 1
                                                 w.v
                                                 0>
                                                               -
                                                              .-
                                                                             :
                                                                             i
                                                                             ;
                                                                                 ~
                                                                                 0>
                                                                                                            In
                                                                                                           .in,
                                                                                                             roo
                                                                                                                                                      .~!
                                                                                                                                                          0>
                                                                                                                                                           In;
                                                                                                                                                                                             :
                                                                                                                                                                                             I
                                                                                                                                                                                             ,
                                                                                                                                                                                                                  i.§
                                                                                                                                                                                                                  : u
                                                                                                                                                                                                                      .&:;'                              Ii:
                                                                                                                                                                                                                                                   E >~mQ)_.c
                                                                                                                                                                                                                                                  .P. E "C E
                                                                                                                                                                                                                                                  a.Q)wm"C"C"C

                                                                                                                                                                                                                                                              oc-
                                                                                                                                                                                                                                                                                                                                   Q) -§:
               ~            ,        m C                      ~              ,a.                           .0                                             ::J:                               1                    '0>                             --~-
                                                                                                                                                                                                                                                   Eiiiro.cQ)cQ) c                                                                Q)-
               011:
               «i5:mlo>
                                     c~;E
                                                                             i   0
                                                                             iICIn-0.
                                                                                                            >- ;'c
                                                                                                           ;::;
                                                                                                             O>E 0
                                                                                                                                                        .0
                                                                                                                                                       -,I-
                                                                                                                                                                            "
                                                                                                                                                                            ;                1:
                                                                                                                                                                                                                  'In
                                                                                                                                                                                                                 :,- I-                           "C
                                                                                                                                                                                                                                                                ~
                                                                                                                                                                                                                                                                U)
                                                                                                                                                                                                                                                                           Q)       -0)
                                                                                                                                                                                                                                                                                        0           --
                                                                                                                                                                                                                                                                                                                                  a.
                                                                                                                                                                                                                                                                                                                                  Q)    -
                                                                                                                                                                                                                                                                                                                                        --
               0;00>                                     1     '-            !iroln             0>          t:ro  -0                                   .c:0>                ,                 I                  'c.
                                                                                                                                                                                                                                                   c_-Q)w                                                                                    U)
               0.   !                >- 5:                    .:                                                                                                                                                                                   mo°"CU)"Cw
                                                                                                                                                                                                                                                   w   >-.::0                           ='                    m -~ ro
                                .O>:?;-                        0>            I     C    C                  ::J                 C                                            ,                 .'ro                                   In           -0 -~ 5 _"!:::~ M "C
               .c:
                   I -'-
                0> I .c:.-
                              -
                              .c:
                                                                             I     :s:~                     cr                 ro                      .c
                                                                                                                                                                            I'
                                                                                                                                                                             ,               I                  I          UO>
               -
               -:J
                o     Wu
               .- II ->-
                C
               "0
                      E 0>
                           w
                      wl-"i::

                               C
                               o
                                     O>                                      I

                                                                                   0 ~
                                                                                   0>:>
                                                                                   >-:>
                                                                                  :5;:;.

                                                                                                            ro
                                                                                                            In
                                                                                                            ro

                                                                                                                           .2:'
                                                                                                                           C
                                                                                                                           0>:5

                                                                                                                                                        01
                                                                                                                                                        L-
                                                                                                                                                        ~                                    I                  I !E ~
                                                                                                                                                                                                                  "
                                                                                                                                                                                                                , .In



                                                                                                                                                                                                                           .2>
                                                                                                                                                                                                                            c::J 0
                                                                                                                                                                                                                                     In




                                                                                                                                                                                                                                                   ""-UCmOa. 0)
                                                                                                                                                                                                                                                  c2
                                                                                                                                                                                                                                                  8 ucm
                                                                                                                                                                                                                                                    w -c E ""G>N
                                                                                                                                                                                                                                                                  O::J
                                                                                                                                                                                                                                                           C U);::>-
                                                                                                                                                                                                                                                                        -='-c-                                                               w
                                                                             I
                                                                                   E          .-0>
                                                                                               L-          -.~
                                                                                                                           ~
                                                                                                                                                                                                                           ro
                                                                                                                                                                                                                                     0>
                                                                                                                                                                                                                                     L-           c~umot9t
                                                                                                                                                                                                                                                  -c 0 Q) ;0:- U) -m
                                                                             I
               ~
                0>
               -wc
                0;.20>
                            I
                                     >--
                                     '- m
                                                              ~
                                                               0>
                                                               IV
                                                               :J
                                                                                  2u
                                                                                   In
                                                                                               :J"'"
                                                                                               0>          ro.911i
                                                                                                           C       -0>
                                                                                                                                                        I/)
                                                                                                                                                         0>
                                                                                                                                                        ::J                 I                I                  1:52
                                                                                                                                                                                                                I  0>.!2                          ::J'-U)c'a>°='
                                                                                                                                                                                                                                                  ucc~a.co-
                                                                                                                                                                                                                                                  w 0 0 0
                                                                                                                                                                                                                                                  w U --~
                                                                                                                                                                                                                                                                                                          --
                                                                                                                                                                                                                                                                                                        U ~                                  0)
                e- i w>    ,c-
                                                                             I,>-1/)Inl-                   0
                                                                                                           In               Olncr
                                                                                                                           .9  I/)                      ~                   i                I,                 IL-L-
                                                                                                                                                                                                                I::J                 a.
                                                                                    ",,-                   0>                  0>                                           ,                                   I I/)                0             E            '>.       -~Ii:~C
                                                                                                                                                                                                                                                                           m        ~               --Q)--
                O!
                g    ~~ -m l ow
                   ; ~                                                       !     "-c                     ~               CC                           w                   i                I                  I ~a.a.                            Q) -;:=+-
                                                                                                                                                                                                                                                                           E            C Q) ""
                                                                                                                                                                                                                                                                                        ~UIi:"C                                              ='
                                                                             I     0>          ro          .5                  0> ~                     01                  I,
               .-:   « IV ~                                                  :     ~ I/)                   .-E                     ro -0                                    :                !                  :          a. ro                  iii::Joma.cu
                0>
               '-:
                                :   O .c:!-     -i             IV
                                                                             :     L- ro                   U                   0> O>'::J                               -'                                        ;         "Q) 0>                   >-u""-U)U)Q)c
                                                                                                                                                                                                                                                    U)Q)C~
                                                                                                                                                                                                                                                                U) _
                                                                                                                                                                                                                                                                   --w                              ~              -"C--
                                                                                                                                                                                                                                                                                                                            --U)
                                                                              ;   o.c
                                                                                  -ro                       ro                 OI:S:.o~
                                                                                                                                   ""                             ~                                   1Ii.c>
                                                                                                                                                                                                     In'.-
                                                                                                                                                                                                                                                   0)                      0        --~                                           U) Q)
                IV!o.-;n-i~                                                                                                                                                                                                                        C C>                                             ~                             0)--
                ui I                 0> E i.~                                      VI .u
                                                                                   Oft":;:                 ~               C      ",,"E~                                                             0>                    00>       u            -c      -~              C         "C              ~                             C     ~
               -!OImW
               ~                     m,-:10                                       ~:5
                                                                                  06~
                                                                                                           ~
                                                                                                           0               E   ro         ;:;"*« ~L-
                                                                                                                                          U                                                          gL-                   I/)~
                                                                                                                                                                                                                           0>
                                                                                                                                                                                                                                                   0
                                                                                                                                                                                                                                                  -U)
                                                                                                                                                                                                                                                                          0          Q)
                                                                                                                                                                                                                                                                                                    0                       "C          .0
                                     COlD                                                                                                                                                                                                         -[:     'x             ro .~ a.. C                                                         m
               C                     ro   °              "-                       «   In                                                   0>     ~ro                                                a.                    In-o
                                                                                       E                   a..             (9             In     In-                                                                       Inc                    OQ)""Uli:a.
                8. i                 E a. i.!Y.                                   0                                        -1-.0>::J                                                                 ~                     O>ro                   E-wo.c                                                 uE                                  m
                                                                                  a..~ 01                  In              -o-.c~..x                                                                                       C'-                                  O"CU)
                                                                                                                                                                                                                                                                                        w                m                        0
                                                                                                                                                                                                                                                                                                                                             U
               g I -g () 15>                                                                               :s:              c        :                                                  .,           ~                     ~O>
                                                                                                                                                                                                                                                  OC>WmQ)                                                                                    O)
               u            !        m E                       ~                                                                                                                                                                                  -cc                                                                       -c
               =IV I                .,..;        IV            IV
                                                                                   ~e
                                                                                   2'a.
                                                                                                           .~,cu-gi.9~i~i~:~§
                                                                                                           ~L- i U>-ro        :?::-O>j          l                                 I/)        I       a..;                  :s: ro
                                                                                                                                                                                                                                                   W      -c
                                                                                                                                                                                                                                                   WOU.cu-co
                                                                                                                                                                                                                                                    """C""
                                                                                                                                                                                                                                                                           0            Q)              0                    O)-c
                                                                                                                                                                                                                                                                                                                            ---
                E
                                    C'-
                                     ~~ °
                                                               C                   .u L-
                                                                                   Co
                                                                                   ro                      -0
                                                                                                                   co'
                                                                                                                        C
                                                                                                                              U C
                                                                                                                               0> ~
                                                                                                                                    U
                                                                                                                                                        0>          ro
                                                                                                                                                                            I      0>
                                                                                                                                                                                  ::J
                                                                                                                                                                                  cr!.c
                                                                                                                                                                                                     0>
                                                                                                                                                                                                                IIi?;-"::::J- >-
                                                                                                                                                                                                                                     E            ="c
                                                                                                                                                                                                                                                  "C
                                                                                                                                                                                                                                                   Q) 0
                                                                                                                                                                                                                                                        c"C
                                                                                                                                                                                                                                                                           m W"C
                                                                                                                                                                                                                                                                                                                   -'§
                                                                                                                                                                                                                                                                                                                                  U) 0
                                                                                                                                                                                                                                                                                                                                        -[:
                                                                                       E                    COIro          _: -0                                                  0>"""
                e,o>a.o                                                            Ecu                      ro    roE    I -o--                                                   L-loiuO>                                                        uEU)--_Q)
                                                                                                                                                                                                                                                         li:Q)
                                                                                                                                                                                                                                                                                                                                             E
               -.i
                w
                      "Q..:
                                ;    E           0>
                                                              U                   -g C>                     iii   0> OL- , -0 5>!                                                 :IJ i £                       I           ~.S                   e.c-oc ""m""
                                                                                                                                                                                                                                                   a.       ~
                                                                                                                                                                                                                                                           ~""'"C                       Q)
                                                                                                                                                                                                                                                                                                         Q)
                                                                                                                                                                                                                                                                                                         'u          ~::J
                                                                                                                                                                                                                                                                                                                            ~U)
                                                                                                                                                                                                                                                                                                                            ~                0
                0>          I       .-.c:                      0>                  ro '-0                  .-~
                                                                                                           c      > 'E !.0> ~ 0> ,                                                 In i -0                       i         I- ro                   Q)      ='     C                                                                          ='
                w               I      --.c:
                                                                                   Ilia.                   2               2.-!0>0I!                                              ~ 10>:-
                w
               ~ i ..Q° !.9
                            '       a.~                  '-
                                                                                  C -~                     .~                    I
                                                                                                                           .8 g» ' tv -g i                                        «1
                                                                                                                                                                                  06  ~                          1;        ~ ~
                                                                                                                                                                                                                                                   >
                                                                                                                                                                                                                                                  --.J::""
                                                                                                                                                                                                                                                           OO
                                                                                                                                                                                                                                                                  U                     Q)          .- 0 C
                                                                                                                                                                                                                                                                                                         --
                                                                                                                                                                                                                                                                                                              U)
               ~IV I ~ & I ~                                                       O>.c                    E              .c~                           In.ol                                        0            ,        .~        0>            ~-cm~a..c
                                                                                                                                                                                                                                                   Q) W -c U) ~                                                                              0
                0>
                   I O>:J °         "OW                        a.
                                                                                   E-
                                                                                   O>
                                                                                              t'ft            _::JO>I~
                                                                                                                       I"'"
                                                                                                            In.roL-I06~'~
                                                                                                                                             U'~ro:
                                                                                                                                                                             ""
                                                                                                                                                                                  Ole-
                                                                                                                                                                                                     o            i
                                                                                                                                                                                                                  'L-,ft
                                                                                                                                                                                                                  'OV'
                                                                                                                                                                                                                           ~         In
                                                                                                                                                                                                                                                  .c.g?::J~~~u
                5:!0ro                                         ~                                                                                       «o                    !o;U                    c            !-'::~                           Q)~uU)oo"C
                                                                                  -0.0                     ~:o>o!
                                                                                                                                                  I                                                              I                                 o..:D~Q)a..U)~
               '- Ii -=.c:
               .-
               :?;-
               :J
                     .-.~ --         U w
                                                         I w
                                                         1.-m
                                                                                   Ea.
                                                                                  --a.
                                                                                   iii         ::J
                                                                                                           U.cU'
                                                                                                            ~;
                                                                                                           -:
                                                                                                                            -L-
                                                                                                                             In 0,
                                                                                                                                       0    C
                                                                                                                                       a.. .-I
                                                                                                                                                                            ,I     In
                                                                                                                                                                                   In
                                                                                                                                                                                              ;--;a.-o
                                                                                                                                                                                              I
                                                                                                                                                                                                   0> '
                                                                                                                                                                                                   L-
                                                                                                                                                                                                                       In-o
                                                                                                                                                                                                                           In         ro
                                                                                                                                                                                                                                                  Em_Smm:D
                                                                                                                                                                                                                                                   O Q)""o~ m~                                                              .c--.c
               U                i   ~            E             U                   a.          II)          >-,            .--,        --o!                                        0>              ro,                     0>         0>
                                                                                                                                                                                                                                                   uc""Q)~~x
                                                                                                                                                                                                                                                      -C,>C
               ~                     °2 i~                                         0-
                                                                                  -ro
                                                                                    0>
                                                                                   >:5                 ;
                                                                                                           =
                                                                                                            ro
                                                                                                           '-
                                                                                                           C           ; «
                                                                                                                           ~
                                                                                                                            ~1I),0>0>8
                                                                                                                           ..x            c:
                                                                                                                                          o
                                                                                                                                          ~       i -.cr;
                                                                                                                                                            0» .:,
                                                                                                                                                                 ::J
                                                                                                                                                                                   ~
                                                                                                                                                                                   .u
                                                                                                                                                                                  II)
                                                                                                                                                                                                    In!U,-
                                                                                                                                                                                                     ~;
                                                                                                                                                                                                     ~,
                                                                                                                                                                                                     -~
                                                                                                                                                                                                                            0
                                                                                                                                                                                                                           '-
                                                                                                                                                                                                                           a. 1n
                                                                                                                                                                                                                                      ro
                                                                                                                                                                                                                                                  "C::JQ),>mu
                                                                                                                                                                                                                                                  a.
                                                                                                                                                                                                                                                  Q»E-"Cu-U)
                                                                                                                                                                                                                                                                                                                                             Q)
               t:                    E~                    E                                                                                                                                                                                       0            E         U)--c.c
                                                                                                                                                                                                                                                                          U)ew-m
                                                                                                                       :nO ro!
                                                                                   0>                  ;    0>             UEo> 0>                                                              -0                                    0>
                C                    '-~
                                     IVW'm.              "-W                      -0 0>
                                                                                     E !                    U                                                       L-; ~                     I '-=
                                                                                                                                                                                                 C                         ~  ~
                                                                                                                                                                                                                           06 v,                  ""G>~Q)cmQ)"C
               °5:                   g>o>  :OIW
                                     ,-ro°O>                                      Qw!Qio>"[;'I~:lJI.<:2                                                                                       I10(9I«~                                             >U)U)ouU)c
                                                                                                                                                                                                                                                   w>-U)u.Qwm
                                                                                                                                                                                                                                                  "C    U) m ~
                                                                                                                                                                                                                                                                                                    ro o..~
               ~
                C                   0.'-
                                                 0>
                                                             11l:c>
                                                                         o        O>-I/) I UI.ccU)O>
                                                                                                il-O>                                                               In      I     O              -o~                       a..ro                   U)--       o                                           ~
                     ..a.                                          .'-                                                                                                                                                                     ...c    mo~W~;;{~
                                                                                                                                                                                                                                                      c                                      g?               m                         ~
                '"                   nn                        oa.                -ci ~                I   ai          I"":                  g>             ciI ~                 .s::. I.":                               --:., ~
                                                                                                                                                                                                                                           !l  o -Q~~U)s:::o
                                                                                                                                                                                                                                            C-""C:DQ)        0 a..
                                                                                                                                                                                                                                           eo
                                                                                                                                                                                                                                           Q)u~=mU;o:-
                                                                                                                                                                                                                                                li:m""""::JQ)
                                                                                                                                                                                                                                                          --Q)::J                                                           -.c
                                                                             I                         I               I                                                                                                                   e
                                                                                                                                                                                                                                           Uu-.~m>
                                                                                                                                                                                                                                                  ""c='cOO-
                                                                                                                                                                                                                                           ou~c::JQ)Q)o
                                                                                                                                                                                                                                                          C_U)U)c
,'~
          0.2. Answer Yes or No, and then evaluate the degree to which the configuration requirements                      address the patching       of security vulnerabilities.        If
          appropriate or necessary, include comments in the Comment area provided below.




                                                                                                                                       Yes
                                                                                                                                                         Almost Always, or 96-
                                      a. Windows XP Professional
                                                             --                                                                         Yes              100% of the time
                ,                     b. Windows NT                                                                                               -Almost         Always,      orOO=-
              ~c~
                                                                                                                                        Yes              100% of the timeIC_.-AI-;~;AI~-;~~,-~;-96~,

                                      c. Windows 2000 Professional
                                                                                                                                                         100%    of the time
                                                                      -                                                                -Y~~-
                               "
                                      d. Windows 2000
                       "       -..'                            0-    ,,'                                                                N/A                                          ~-
                                                                                                                                                         Almost Always, or 96-
                                      e. Windows 2000 Server,',:';
                                                                                                                                        Yes              100% of the time
                           "                            -
                                      f. Windows 2003 Server
                "--   .;                              -                                                                                 N/A

                                      g. Solaris
                                                                                                                                        NfA

                                      h. HP-UX
                                                                                                                                        N/A

                                      i.   Linux
                                                                                                                                        N/A

                                      j. Cisco Router 10S                                                                               Yes       '- --*~~~r96~                            .
                                                                                                                                              I

                                                                                                                                        Yes       I      100%    of the time

                                                                                                                                        N/A



                    D.2. Do the configuration requirements implemented above in D.1.a-f., address patching of                                            Almost Always, or 96-
                    security vulnerabilities?                                                                                           Yes              100% of the time

     Comments:
     Workstations connected to FCA's network utilize either Windows 2000 or XP as their operating systems. FCA OCIO has developed specific security
     configurations that are applied to the workstations before they are delivered to the user. The configurations include local security policies that aid in
     protecting the workstation from unauthorized users and that prevent authorized users from making major changes to the operating system. Another
     example is a domain system policy that prevents the user from accessing or modifying the registry. OCIO system administrators        have considered the
     Windows 2000 and XP configuration guidelines contained in NIST SP 800-43 and 800-68 and modified those configurations based on FCA specific
      environmental        considerations.
      Windows 2000 Server is the primary operating system installed on substantially all servers in the FCA network. Cisco is the primary supplier of
      routers and switches used in FCA's network. FCA OCIO has developed specific security configurations for its network equipment using baseline
      security measures from vendors and others sources and modified them for FCA specific environmental factors.

      FCA maintains an active program for identifying and remediation of security vulnerabilities.    A cornerstone of the program is a Lotus Notes database
      utilized by OCIO for collecting information on announced security vulnerabilities relating to the hardware and software currently in use at FCA. The
      database also facilitates tracking of the status of efforts to patch the vulnerabilities. FCA aGiO monitors several sources for vulnerabilities including
      vendor and US CERT bulletins.      Identified vulnerabilities are posted to the Notes database and appropriate staff is assigned to take necessary
      actions. Required patches are pushed to all workstations using system management software. Additionally, FCA utilizes automated methods to
      ensure that current updates to its anti-virus software              are installed on its servers and workstations.




1--ATm-osf~s:-o-r~'
~
                                                               --
       II>                  Q)          Q)
      ~II>
                           .§
                            Q)
                                       §
                                        Q)

                                                                                       ro
                                                                                       ai
      :5                   ,£          :5                                              m
                                                                                       ~ Z                   I
      '0                    "6         '0             ,.                              -:::«
      ~                    ~           ~              .0
                                                      ?
                                                                                         >
                                                                                      t-1/»
      0                     0          0
      0                     0          0
      0                     0
      ~                     ~          ,-0                                             Q) c.
                                                                                      -C;-
      cb                    cb         cb                                              ro u
      m                     0>         0>                                             "UC
                                                                                       C Q)
       15                   0           ()                                             ro 0
       II)                  iii         '">-          -/                               C-
       >-                    >-                            I                          .Q       .1/)
       co                   IV          IV                                            -Z
       ~                    :!:         ~                  I
                                                            'C'o
                                                                                       U
                                                                                       Q)~
                                                                                           ~
      ~                     "«         ";{                 I.¥
                                                           ;1/)
                                                                                       "(j»
                                                                                      "U. I/)
      i;)                   "(i)       1;)                 ,.-
                                                                 '-                     C 0)
       0                    0           0
       E                    E           E                       .2;-
                                                                .;:                    I/) -
                                                                                       QO
      <!                    "«         ~                         ::I
                                                                 u                     ::1.2;-
                                                                                       ,-.-
                                                                 Q)                   £: 5
                                                                I/)                   .-u
                                                                I-                    ~Q)
                                                                -01/)
                                                                 Q)                    ~           C
                     cQ)
                                                                 0)
                                                                -.t:
                                                                 ro
                                                                .-C
                                                                                       Q)-         -ro
                                                                                                   0
                      E                                         ~                            .u
                      ~                                         E
                                                                0
                                                                                       ~'Q.
                                                                                       roc.
      =IV>-          .E
                      £:                                         Q)
                                                                -~ro
                                                                I/)
                                                                                      -.0          I/)
                      Q)
                                                                ::I                    I/)          Q)
       E              ~
      --
       Q)
       £:
      .-0
                      IV
                                                                C
                                                                 >-
                                                                 U
                                                                                      O).c
                                                                                       c£
                                                                                      .-ro
       C/) -                                                     Q)
                                                                 0)
                                                                                      "fic.
                                                                                      -~
       £:
      -C)             £:                                         ro                    ro-"-
       Q)             '-                                        Q)                    c..;:
      "U             1::
                                                               .c                     .2;-13
      .-0
        u             c.                                        -.;:                               Q)
                                                                 a>                    u-
        c                                                       I/)                    ::I         I/)
      .-Q)
       C)             -=                                         0                     Q)          0
       C              m
                                                                "U                     I/)c
      .-C
      1::             ~                                           :                   "U 0
       c.
       0
          -Q)                                                   U
                                                                --ro
                                                                 a>
                                                                                       a>.=
                                                                                       ro-
                                                                I/)                    E ro
                                                                                         -
       Q)             X
       ~              Q)
                                                                        o
      .E             .E                                          --C
                                                                 a>
                                                                 0)
                                                                                       0
                                                                                       ::1.-
                                                                                                   I/)
       C/)         C/)
       Q)        ! Q)                                          .2                      roa>
       ~         1 ~                                             0                           .0)
      ~ I~                                                       C                    !!!.         ro
                                                               .c                     roC
      B B
       0              0                                        !~
                                                               ,-
                                                                 u                     >
                                                                                       i> E
                                                                                       '-
                                                                                                   ro
       5-
      "0         1     5-
                      "U
                                                                I/)                   1o="U
                                                                                                   C
                                                                ::I
                                                                a>
                                                                                       '-
                                                                                      .¥~
                                                                                                   'v
       £:              £:                                       0"                     o~
       m              IV                                        .-~                                "'-
       C/)       ,C/)                                            C                    .t:'-
                                                               .c                     Q)£:I/)
      .~ I'~                                                    ~u                     ca>'-
                                                                                        _"U
                                                                                       Q) 0- ; g!
      .-1-- 10
      0                                                                -,-00
                                                                !!!.                   ro-
      "U
       c.ja.                                                     o                    .~a>"U
                                                                                      _
       Q)    I "UQ)                                              0                     t: I/) C
                                                                -roro
      Cc
       Q)        I     Q)
                                                                -0
                                                                 ro                    I/).c.
       E         'E                                             ~                      0)2 ~I
                                                                    >                  croo
       ~         ! ~                                                    -'c                        "U '=
       U          : u
       0         '0                                             ;?:                    cC;-~
      "U         '"U                                             ro                    ro.-
                                                                 u                     u2c
       C/)       'C/)                                           10=                    1/)a>::I
       ~              ~                                         .u                     1/).;:: E
      ..Q             ..Q                                      ,a>             i..:    ::I c.E
      0               0                                        i c.            a>     .!:          e     0
                                               II)             '(/)            ~      >            c. u
      >-              >-
       U
       C
          Q)

                      U
                      C.
                       Q) C/)
                                               ~
                                               :a               .c0 «C
                                                                               I/)
          C)           C)Q)                    In
       IV              m~                       0-
          Q)           Q) -;::
                                               ra
      .c              .cO                      U
       I-             1-£                       ~
                        -~                     .2
          m..D                    IV           U
                                               Q)
                                               "'Qi
                                               0
                                               C
                                                Q)
                                               "0
                                               'u
                                                ~                                                                iii
                                                                                                                  "E
                                               C'!                                                                Q)
                                               IU                                                                 E
                                                                                                                 !§
                                                                                                                 u
i~:
~
                    0)
                   I/)
                   0)
              .c
:2;-1--
.;::
  u-
 :J
  0) c:
 I/)


                   I/)
                   0)
  >-E
 c:.c
  (1) g
 o:t::
-(1)
  O)U
 :J                0)
u-
       -(1)
u"-
0)                 u
 I/)               0
 I/) :z
  (1)           (1)
  t:            ~
  (1)          .-
DO)
E£o)u
  ~   c:
  0   (1)
u=
0) (1)
       -I/)
oE
~ci>
(1) I/)
 >-:J
-0
 0) .-
 ~g
 0) (1)
~E
(1»-
_D
 Ou
 c: 0)
 1/)-
 (1)~
 3:~
«=
Oe
lI-a.
 0)-
   .U
 c: 0)
z                        -
 :J                I/)
 ~
  0 E
    ~
-00
 ~ 3:
  0)                     -
u                  I/)
--0)
 I/)               I/)
  c: :J
0.:
 u                 >
0)-
I/) 0
°c:-
:Eo
 c:C>C
 (1) 0) 0
.I:: ---
-~iO"
 ~~-
 O)O)C:
.c.co)
--E
~B~
~c:a.
u=E
 (1) -"-
:t::~0)
 (1) I/) I/)
-_c:
OC:o)
-0)-
 O)Uo) U
C>"U
0- c: I/)
2"-     :J
 0) 0) .:
---
--
.I::.c>
  0  0                       -(1)
  c:~B
 I/)"SI/)
 (1)D<;I:
 ~o)o
«.clI-
oI->.
lI-    .D
          0)
u.-    -I/)u 0)
  o~-c:
"t=                          U
  O)O)C:
a..c(1)
 c>o.c
c:o-.2:-
.-0-
t        c:
  0                0) (1)
  a.c:C:
  0)
  o-"5E
  0) e                        0
.c                           u
                              0)
  c>co-
  cO)a.
"t=  u                        0)
  :J.-                        ~
Quo)          .s              3:
                                                                                                            (1)-0
                                                                                                            -Q)
                                                                                                            C-o'-
                                                                                                            Q)
                                                  CD
                                                                                                            E           >
                                                  0                                                         '-Q) '-0
                                                  ..;t-                                                '-               Q.
                                                  CD
                                                  M
                                                                                                            ='«
                                                  ~                                                         go
                                                                                                            '-u..
                                                                                                            0)
                                                                                                            C                 '
                                                                                                       ,-               (I)
                                                                                                        oS:             Q)
                                                                                                            ro:e
                                           c >-                                                             z= .0
                                           Q) .~
                                          -L-                                                               tJi        'V>
                                           0   :J
                                                                                                            Q)          C
                 "0                       -U
                                          f/> Q)                                                       :e 0
                  Q)                                                                                   =Q.
                 ~0L-

                                          -U)
                                          -oc
                                          .91.0
                                                                                                       .0(1)
                                                                                                       ,-  Q)
                                                                                                            (I)
                                                                                                            C
                                                                                                                        '-
                                                                                                                        '-
                  a;                      -EE                                                               0          --
                  0),.
                                          c E                                                               Q.Q)
                                                                                                            (I).c
                                                                                                            '-Q)-0
                  c                       .9: 0               .
                 :5                       -"'uU)
                                           (I)
       cii                                --OQ)                                                             >--
                                           CQ)£
                                           Q)U)u
                                                                                                       :!:::
                                                                                                            '--
                                                                                                            =' ro
                                                                                                                        Q)
       *d
             ~
                                           U)         U)    (I)
                                                                                                            U          -c
       <n                                  Q)Q)Q)
                                           L-L-L-                                                           Q)Q.
                 :;::                     a.-o..o                                                           (I)         0
                                          0-0                                                          ,2               a.
             !~
             !

                                           Q)
                                          -0-
                                                      (I)                                              ~Q.
                                                                                                            U           ro
             ~
                                          .-(I)                                                             Q)          (I)
                                           >£                                                               Q.ro
                                           Q)-"'                                                         (I)
                  Q)                      -"':
                                           :J         U)
                                                                                                       .c               (I)
             ;;::                                                                                       -Q)
                 m                         C
                                          .-Q)
                                                      U)
                                                                                                            ~ '-
                                                                                                        --(I)
                                          E           U                                                     Q)          ='
                                          aU                                                            (I) 0
                                          N«                                                            0 U
                                                                                                       .c   Q)
                                                                                                        -,~
                                                                                                            '-          (I)
                                                                                                            0-
                 ~~-~§
                  0            '0'0"-(0                                                                u..-             0
                                                ~
                                                n                                                      -V-f/)
                                                                                                                  '0                     '
                                                                                                       o-t
                                                                                                       OcQ)
                                                                                                       NQ)-(I)                     ro
                                                                           (/)
                                                                           Q)                          >-Q)=
                                                                                                       u.. '-                      ro
                                                                           >-                               O)roE
                                                                                                            C  (I) .
                                                                                                       'C               Q) Q)
                                                                                                            =,Q)"O
                                                co                                                     "O>-C
                                                                                                        (I)..Qro
                 ac~'-'roCJ)
                 EOLC-
                 uj(i)
                         II>
                                   -2
                                                                                                       Q)Q.'-
                                                                                                            Q)E2 Q)
                                                                                                            >-
                                                                                                            0
                                                                                                                                  -Q)
                                                                                                       -Q)""(/)
                                                                                                        Q..c>
                                                                                                        E->
                                                                           I/)
                                                0
                                                N
                                                                  --..- c.>
                                                                   00£=.
                                                                   .!- 0>
                                                                   0>    -


                                                                                                        Q)"OQ)
                                                                                                       -C
                                                                                                       roroQ)
                                                                                                            0          E


                                                                                                                                   C
                                                                                                                                   Q)
                                                                                                                                   >-
                                                                   0>0)                                -roo
                                                                   Occ                                 "0'--
                                                                                                        Q)O)Q.
                                                                   cO)'c.-                             -0
                                                                                                            C'-Q)
                                                                                                                                   E
                                                                  .-~              ('-.                     Q)
                                                                                                        (I)-Q)
                                                                                                                        Q.
                                                                  ~-O)
                                                                  m I/) c                              Q)C.c
                                                                                                       '-Q)-
                                                M                  0)      (/).-
                                                0                                                       ~              E oS:
                                                                   I-0> C
                                                                        0>.£m
                                                0)                     0>          I-                       (l)Q.(I)
                                                                   1/)1--                                   ,-OQ)
                                                N                 .~       m       0>                   ='-a;u
                                                0                                                       0   >                     ,-
                                                                  .~ ~ "2                               uQ)t
                                                0>;               ""6 m'~                               O)"Oro
                                                c-.
                                                                   OcZ'>-
                                                                   C';:: c.>
                                                                                                       oS: (I).ro
                                                                  .-:J             C                   ,-c:-> ro
                                                                                                            ro          ='         (I)
                                                                  ~c.>o>
                                                                   C-O>O)
                                                                   X I/) m
                                                                                                        z"o(I)
                                                                                                                       .-Q)
                                                                                                        ~              ,?          C
                                                "tt                 0>1-1- 0>
                                                0>                  >--                                     ~"OQ)
                                                                                                            ~   C                  '-
                                                ~                  UCo£=.                                   0 .-ro
                                                                   C.-    "0                           .cQ)~
                                                                    0>0)                                    c.cro
                                                                   ,.. I- m
                                                                   O)C>-
                                                                   ~.-             C
                                                                                                       '~              ~          :z.
                                                                    0> m                                 ro            .-'C
                                                                           0£=.    I-                                  "O='
                                                                  £1/)0                                "oQ)U
                                                                    (/) 0>              -       --Q)                    Ii>        Q)    2:2"0(1)
                                                                    0>"-           0)
                                                tV)                O          .-
                                                                           --=C                 C           >          --ro
                                                '"
                                                0
                                                                  "01-     0>"'£
                                                                           0>  m            1   Q)e~c
                                                                    m.~ c- '-                   EQ.oo
                                                                                                E      «                U:;:..-
                                                                                                ooQ)"O
                                                                                                   u.. '-"O
                                                                                                        ro  ro
                                                                                                O
~
:;;f
